\

-5379

ORIGINAL
filed
®T52O20

IN THE

JuffiEMlcW£Lu?L

SUPREME COURT OF THE UNITED STATES

JEROME MACK- PETITIONER
VS.
PEOPLE OF THE SATE NEW YORK-RESPONDENT

ON PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT
PETITION FOR WRIT OF CERTIORARI

JEROME MACK, #15A2518
GREEN HAVEN CORRECTIONAL FACILITY
P.O. BOX 4000
"STORM VILLE, N 717582
— —
1 | Page

QUESTION(S) PRESENTED FOR REVIEW

1.

Does expressing a finding of probable cause in a court order
authorizing the acquisition of cell site information effectively make
the court order a warrant, for the purposes of Carpenter v. United
States. 138 S.Ct. 2206 (2018)?
2. Should the cell site location information obtained from warrantless
search gathered through a wireless company have been suppressed;
and is Carpenter binding on cases that were not final at the time of
the Supreme Court’s ruling?

2 | Page

LIST OF PARTIES
[ 7 ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A hst of all
Parties to the proceeding in the court whose judgment is the subject of this
Petition is as follow:

3 | Page

TABLES OF CONTENTS
QUESTION(S) PRESENTED FOR REVIEW....

2

LIST OF PARTIES..............................................
TABLES OF CONTENTS...................................
INDEX TO APPENDICES..................................
TABLE OF AUTHORIZES CITED ....................
PETITION FOR WRIT OF CERTIORARI........
OPINIONS BELOW..... ......................................
RELEVANT CONSTITUTIONAL PROVISION

3

REASON FOR GRANTING THE WRIT...........
CONCLUSION..... ................... ...........................

4
5
6
7
7
7

10
18

4 | Page

INDEX TO APPENDICES
APPENDIX A - Court Order Subpoena for Cellsite Information for cell phone
numbers (917) 531-2443 and (917) 549-3793 (Jerome Mack’s phones). .
APPENDIX B - Warrant Application for Cellsite Information for Samsung Galaxy 5
S, Model Number SM-G900A, Serial Number R38F31FK87K (Edgar Wilson’s
phone).
APPENDIX C - Lower Courts Decisions
Petitioner

Direct

Appeal

was

Affirmed

on

May

27,

2020.

See

People v. Mack, 183 A.D. 3d 916 [2nd Dept. 2020]

Leave to Appeal to the New York Court of Appeals, was denied on
September 18, 2020. See People v. Mack, 35 N.Y. 3d 1092.

5 | Page

TABLE OF AUTHORIZES CITED
Cases
Franks v. Delaware. 438 U.S. 154 (1978)...............

13

Hamlin v. United States, 418 U.S. 87 (1974),........

16

Matter of Abe A.. 56 N.Y.2d 288, 296 (1982).........

15

People v. Breazil. 31 A.D.3d 461 (2006).................

17

People v. Clark, 171 A.D.3d 942 (2019)......... ........

14

People v. Favor. 82 N.Y.2d 254............... ...............

16

People v. Harris. 36 Misc.3d 613, 616 (2012)........

13

People v. Jean-Baptiste, 11 N.Y.3d 539 (2008)......

16

People v. Jordan, 167 AD3dl044............................

17

People v. Simpson. 62 Misc3d 374, 389 (2018).......

17

People v. Slaughter. 37 N.Y.2d 596 (1975)........... .

13

People v. Streeter. 112 A.D.2d 332 (1985).............

....16

People v. Vasquez. 88 N.Y.2 561.............................

16

Smith v. Maryland. 442 U.S. 735 (1979)................

12

United States v. Carpenter. 138 S.Ct. 2206 (2018)

10, 12, 14, 16, 17

United States v. Jones. 565 U.S. 400 (2012)..........

12

United States v. Miller. 425 U.S. 435 (1976)..........

12

6 | P age

PETITION FOR WRIT OF CERTIORARI
OPINIONS BELOW
•

The Appellate Division, Second Department, did not address the issue before
this court, although the issue was raised in the pro se supplemental brief. The
Court ruled that the remaining issues in petitioner’s pro se supplemental brief
were meritless. See, People v. Mack. 183 A.D.3d 916 (2020).

•

The New York Court of Appeals denied leave appeal on September 18, 2020.
People v. Mack. 35 N.Y.3d 1095 (2020)

RELEVANT CONSTITUTIONAL PROVISION

• The Fourth Amendment to the United States provides in relevant part “The
right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated...”
• The Fourteen Amendment to the United States Constitution provides in relevant
part, “nor shall any State deprive any person of life, liberty, or property, without
due process of law.”

7 | Page

THE STATEMENT OF FACTS
On October 9, 2014, the defendant was arrested and subsequently charged
with Attempted Murder in the Second Degree and Criminal Possession of a Weapon
in the Second Degree.
The charges against the defendant stemmed ostensibly from the shooting of
Devon Simmons which occurred on October 9, 2014. Devon Simmons was released
from Otisville Correctional Facility earlier that day and was picked up at the
facility by individuals alleged to be driving a white Hyundai Sonata.
Mr. Simmons was later found by Mount Hope Police Officer, Kevin McGrath
at the Otisville train station. Mr. Simmons was found laying on the platform
covered in blood.
It was alleged that the defendant and his alleged accomplice had conspired to
pick up Mr. Simmons from the Otisville Correctional Facility in an attempt to kill
Mr. Simmons.
On October 9, 2014, petitioner and codefendant Edgar Wilson were arrested
in New York City and transported to Orange County.
On October 30, 2014, the defendant was subsequently arraigned in County
Court on indictment #2014-649. He was indicted on the charges of Attempted
Murder in the Second Degree, assault in the First Degree, Criminal Possession of a
Weapon in the Second Degree, Criminal Use of a Firearm in the First Degree,
Conspiracy in the Second Degree, Conspiracy in the Fourth Degree, Grand Larceny
in the Fourth Degree and Criminal Possession of Stolen Property.

8 | Page

On November 7, 2014, the People applied for a search warrant to seize the
cell site location information for codefendant Edger Wilson’s phone.
On November 10, 2014, counsel filed a motion for discovery. Counsel
specifically requested, “All search warrants, including affidavits, supporting
documents and returns in connection thereto, as well as a list of all items seized by
reason of such warrant(s), and all arrest warrants and supporting affidavits,
drafted in relation to this matter.”
On December 5, 2014, defense counsel, Alex Smith, filed an omnibus motion.
Among the issues addressed in counsel’s motion was the suppression of unlawfully
obtained evidence.
On January 9, 2015, the Court issued an order directing SPRINT/NEXTEL
corporation to provide the Orange County District Attorney’s Office and/or the New
York State Police with cell site location information for petitioner’s phones.
After a jury trial, petitioner was convicted of Attempted Murder, Assault in
the First Degree, Criminal Possession of a weapon in the Second Degree, Criminal
Use of a Firearm in the First Degree, Conspiracy in the Fourth Degree and
Criminal Possession of Stolen Property.
On June 1, 2015, the Court sentenced petitioner to an aggregate sentence of
30 years imprisonment followed by 10 years of post release supervision.

9 | P age

REASON FOR GRANTING THE WRIT
POINT I
CELL SITE LOCATION INFORMATION OBTAINED
FROM WARRANTLESS SEARCH SHOULD HAVE BEEN
SUPPRESSED; AND THE HOLDING IN CARPENTER IS
BINDING ON THE INSTANT CASE SINCE THE INSTANT
CASE WAS NOT FINAL AT THE TIME OF THE
SUPREME COURT’S RULING IN CARPENTER.

A.

A Court Ordered Subpoena Can Not Be Used As A Substitute For A Warrant

Under United States v. Carpenter. 138 S.Ct. 2206 (2018), an individual
maintains a legitimate expectation of privacy for Fourth Amendment purposes in
the record of his physical movements as captured through cell site location
information. The government must generally obtain a search warrant supported by
probable cause before acquiring CSLI from a wireless carrier. Consequently, an
order issued under section 2703(d) of the Stored Communication Act (SCA) is not a
permissible mechanism for accessing historical cell-site records.
On October 9, 2014 petitioner was arrested for attempted murder and other
charges. Six warrants were issued in relation to this investigation: one for
petitioner’s home; two for the vehicle suspected to have been used during the
alleged crime; two for the home of co-defendant Edgar Wilson; and one for the cell
phone of Edgar Wilson. The warrants were issued between October 10, 2014, and
November 7, 2014.
In contrast to obtaining a warrant for the CSLI in connection with Wilson's
phone, Judge Jeffrey G. Berry signed a court order pursuant to USC 18 §2703 on
10 | P a g e

January 9, 2015, directing the Sprint/Nextel Corporation to turn over cell site
location information for phone numbers (917) 549-3793 and (917) 531-2443, for the
time period of October 1, 2014 through October 10, 2014; this court order was based
on an apphcation submitted by Senior Investigator Joseph Kolek (Appendix A)..
The above court order resulted in 156 pages of cell-site information as well as
two maps depicting cell-site locations for the above mentioned phone numbers. As
there was no physical evidence connecting the petitioner to the alleged crimes,
District Attorney Michael Milza relied heavily upon this illegally obtained
information. In an effort to tie petitioner’s movements to the alleged crimes, the
People subpoenaed Sprint/Nextel representative Joseph Trawecki to testify at trial
regarding the cell-site information obtained by the court order (TT.1 4/22/15, pgs.
853-869).
During closing arguments the People referred to it as "the evidence that
cannot lie, that cannot be mistaken" (closing Arguments, pg 50, Lines 2, 3 and 5);
and again on the very same page as "incontrovertible" (See, closing arguments pg.
50 lines 10-12). The People refer to the cell-site information again on pg 60 lines 1518, pg 61, hnes 13-25, -g 62 lines 1 and 2; pg 73-78, pg. 79, lines 13-18, pg 83 line 25,
25, pg 84, lines 1-4. Of 36 pages of closing arguments almost half are about or refer
to the illegally obtained cell-site information.

1 For the convenience of the court, all references to transcripts baring the following abbreviations TT (Trial
Transcript); PTH (PreTrial Hearing); GJ (Grand Jury); Proceedings (Trial) S or Sent (Sentencing Hearing)
rel
the Respondents and submitted by them as evidence in support of their case at trial.
11 | P a g e

Carpenter had not been decided at this point; However, United States v.
Jones, 565 U.S. 400 (2012), addressed a person's expectation of privacy in his
physical location and movements and was decided in 2012, two years before
petitioner's arrest. Carpenter declined to extend Smith v. Maryland, 442 U.S. 735
(1979) and United States v. Miller. 425 U.S. .435 (1976), decisions to cover cell-site
location information it does not however fail to extend Jones.
It is important to note that in this case investigator Joseph Kolek submitted
an application for a warrant to obtain cell-site location information from the phone
of co-defendant Edgar Wilson on 11/7/14. See, Appendix A (Warrant Application
date 11/7/14, notarized by Hon. Jeffrey G. Berry). A warrant for the cell-site
information of Edgar Wilson's phone and other data was issued on 11/7/14. The
People neglected to obtain a warrant for the cell-site data of the phones listed under
the subscriber information of Jerome Mack, even though the people had every
opportunity to do so.
While Carpenter does allow for certain exigent circumstances to obtain CSLI
without a warrant, none of those instances are applicable to the case at bar. The
People had the time and means to secure a valid search warrant for petitioner's
phone records, as they had done for co-defendant Wilson's.
By circumventing the process of obtaining a warrant, the People effectively
prevented petitioner from controverting the validity of the search and seizure of his
phone records in order to track his personal movements through cell site location
information. In doing so, the People violated petitioner’s Fourth Amendment Rights.

12 | P a g e

If the People had acquired the requisite warrant, the petitioner would have
been afforded the opportunity to be heard and put forth grounds on which the seized
information might be suppressed. However, the law does not give a defendant
standing on which to quash a court ordered subpoena. See, Miller, supra at 444;
also see, People v. Harris. 36 Misc.3d 613, 616 (2012).]
Conversely, it is well settled that a defendant is entitled to a hearing under
both New York State and Federal law, in which he may challenge the truthfulness
of the allegations in the affidavit supporting a search, warrant only where he
attacks the veracity of the police officer affiant, and not where the credibility of the
source of information is challenged (People v. Slaughter. 37 N.Y.2d 596 (1975);
Franks v. Delaware. 438 U.S. 154 (1978). Therein, the United States Supreme
Court stated:
Where the defendant makes, a substantial preliminary showing
that a false statement knowingly and intentionally, or with
reckless disregard for the truth, was included by the affiant in
the warrant affidavit, and if the alleged false statement is
necessary to the finding of probable cause, the Fourth
Amendment requires that a hearing be held at the defendant’s
request.
The truthfulness of the statements by the affiant does not mean
‘truthful’ in the sense that every fact recited in the warrant
affidavit is necessarily correct, for probable cause may be
founded upon hearsay and upon information received from
informants, as well as upon information within the affiant’s
own knowledge that sometimes must be garnered hastily. But
surely it is to be ‘truthful’ in the sense that the information put
forth is believed or appropriately accepted by the affiant as
true.
The deliberate falsity or reckless disregard whose
impeachment is permitted today is only that ofthe affiant, notof any non-governmental informant (Supra, at 155-156)
13 | P a g e

Accordingly, petitioner was entitled to be heard before the CSLI was ever
allowed to be admitted into evidence. Thus, the court ordered subpoena violated this
court’s the holding in Carpenter.
The People rely on the Appellate Court’s decision in People v. Clark. 171
A.D.3d 942 (2019), where the Court held:
“[T]he court order authorizing the acquisition of the records
made as express finding of probable cause, which was
supported by the People’s evidentiary showing. Accordingly,
the order “was effectively a warrant” which complied with the
requirement of Carpenter.” (citations omitted) Id. at 943
However, Carpenter changed the landscape for CSLI and “[a]s a matter of
due process, the defendant must be afforded an opportunity to be heard.” Id, at 386.
The order in the instant case relied On the same statute used in Carpenter, the
Stored Communication Act, although the judge in the instant case found probable
cause to support the warrant. However, the petitioner has not had the opportunity
to challenge the finding of probable cause to issue the court order. At the time of the
issuance of the court order in this case, the law in New York was that an individual
does not have a legitimate expectation of privacy in his/her CSLI. Therefore, there
was no legal basis for the petitioner to challenge the acquisition of this evidence and
no due process rights of the defendant were violated. Giving the holding in
Carpenter, the defendant now has standing to challenge the acquisition of his CSLI
records held by a third-party cell phone carrier, and therefore, certain due process
rights related to the finding of probable cause.

14 | P a g e

(2

The New York Court of Appeals noted in Matter of Abe A., 56 N.Y.2d 288,
296 (1982):
“At this point it seems appropriate to add, since here there was
no exigency, that the course followed by the People in bringing
on its original application on notice to the suspect was no more
than is required by such circumstances. After all, when
frustration of the purpose of the application is not at risk, it is
an elementary tenet of due process that the target of the
application be afforded the opportunity to be heard in
opposition before his or her constitutional right to be left alone
may be infringed.” (citations omitted).
The People’s reliance on Clark, and more specifically, the phrase in the
subpoena of a finding of “probable cause” is misplaced, because the cell site location
information was admitted into evidence in violation of appellant’s due process right
to be heard regarding allegations alleged in the subpoena.
Petitioner appeared before the Court on January 9, 2015, yet the record is
devoid of any mention of an application for C.S.L.I. Thus, it was sometime before or
after appellant’s appearance that the court ordered the subpoena on January 9,
2015, and the defendant was not afforded the opportunity to be heard then or at any
time thereafter.
If the courts in New York are allowed to set the precedent that a court order
articulating a finding of probable cause is effectively a warrant, it would give the
subpoena the same power as a warrant while stripping a criminal defendant of
vehicles such as Mann/Dunawav hearings used to controvert the basis for the order.
Such a precedent would allow prosecutors to subvert the protections afforded under
the Fourth Amendment of the Constitution.

15 | P a g e

B.

Carpenter Is Binding On Cases Not Final At The Time Of The Court’s Ruling

Since the petitioner’s conviction was not final, as his direct appeal was sub
judice, he was entitled to any benefit from the ruling in Carpenter. The New York
State Court of Appeals has ruled that cases on direct appeal are generally decided
in accordance with the law as it exists at the time the Appellate Decision is made.
(See People v. Favor. 82 N.Y.2d 254; People v. Vasauez. 88 N.Y.2 561; People v.
Jean-Baptiste, 11 N.Y.3d 539 (2008).
The United States Supreme Court has held that “our prior decisions establish
a general rule that a change in the law occurring after a relevant event in a case
will be given effect while the case is on direct review.” (See, Hamhn v. United
States. 418 U.S. 87 (1974).
Accordingly, the controlling authority in petitioner’s case is United States v.
Carpenter, supra, since direct review was still pending and the judgment had not
yet become final. The petitioner should have benefited from the relief required
under Carpenter. See, Hamhn. supra; also see People v. Streeter. 112 A.D.2d 332
(1985).
In relation to the Carpenter issue, there is no question that Petitioner can
benefit from the Supreme Court’s holdings in Carpenter. See, Hamhn. supra. The
Second Department has long held that “direct appeals are not final in New York
State until an application for leave to appeal to the New York State Court of Appeal
is denied or the Court affirms the Appellate Division’s ruling.” (see, People v.
Breazil. 31 A.D.3d 461 (2006); People v. Jordan. 167 AD3dl044).
16 | P a g e

At the outset of proceedings, defense counsel made an attempt to challenge
all the known “search warrants” in his Omnibus Motion in December, 2014. In total,
defense counsel challenged six (6) search warrants, none of which included “cell site
location information,” because they were acquired by court subpoena and Carpenter
had yet to be decided.
Contrary to the People’s position, petitioner’s Carpenter issue was preserved
for appellate review. As the lower court noted in People v. Simpson. 62 Misc3d 374,
389 (2018) “[a]t the time of the issuance of the Court order in this case, the law in
New York was that an individual does not have a legitimate expectation of privacy
in his/her CSLI.” Since Carpenter, “the defendant now has standing to challenge the
acquisition of his CSLI records held by a third-party cell phone carrier, and
therefore, certain due process right related to the finding of probable cause.” Id.

17 | P a g e

CONCLUSION
For the foregoing reasons this honorable court should grant petitioner the
Writ of Certiorari and rule in the totality of all the circumstances found in this
petition. Petitioner respectfully prays that a writ of certiorari issue to review the
judgment below.
Dated: December 15, 2020

Respectfully Submitted,

Jerome Mack, 15A2518 .
Green Haven Corr. Facility
P.O.Box 4000
Stormville, NY 12582

18 | P a g e

